Genesis Credit® Account
The Bank of Missouri

F03-Y600-7

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

29.99%

How to Avoid Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due
date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Penalty Fees
• Late Payment

Up to $40

• Returned Payment

Up to $40

How We Calculate Your Balance: We use a method called “average daily balance (including new purchases)”. See
your Account Agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
Account Agreement.

JOB SPECS:
Flat Size:
8.25” x 7.5”
Finished Size:
8.25” x 3.75”
Colors:
Front: Black
Back: None
Bleed: No
Note: None

Genesis Credit® Account Agreement
The Bank of Missouri
Dear Accountholder
This Agreement, as defined below, is your contract for your Account and:
• Covers the terms that govern the use of your Genesis Credit Account;
• Outlines both your responsibilities and ours;
• Includes certain disclosures required by the Federal Truth in Lending Act;
• Includes certain disclosures required by the Federal Military Lending Act;
• Includes an Arbitration of Disputes Provision that will substantially affect your rights unless you reject it; and
• Contains important information about your Account.
We encourage you to read the Agreement and keep it for your records. Please feel free to call us with any questions you may have. We look forward to
serving you.
This Agreement begins on the earlier of (1) the date we approve your Application, or (2) the first date that we extend Credit to you on your Account, as evidenced by a signed sales
slip or other evidence of indebtedness.
Definitions
To simplify this Agreement for you, the definitions listed below will apply throughout, both in this Agreement and in your monthly statements. In addition, the words you, your, and
yours refer to the Accountholder(s) who hold(s) the Account Number and is responsible for the Account, each of whom is individually and jointly obligated under this Agreement.
The words we, us, and our refer to The Bank of Missouri.
Account: Genesis Credit Account for which you were issued an Account Number and that is subject to all of the terms and conditions of this Agreement.
Account Number: The Account Number we issue that you may use to make Purchases from Retailer. Use of your Account Number to obtain Credit will be considered a use of the
Account.
Accountholder: The person to whom an Account Number is issued, or who has agreed to pay obligations arising from an Account Number issued to another person.
Agreement: Your contract with us for your Account, which is composed of your Application, and the Account opening disclosures and this Account Agreement. Any sales slip or
other evidence of indebtedness on your Account is incorporated into and made part of this Agreement.
Application: The form with information that you submitted to apply for your Account, including your signature (in any form – wet signed, electronic, or digital), and any acceptance
certificate or other request that you signed or otherwise submitted to obtain this Account.
Billing Cycle: The time interval covered by a monthly statement. Each Billing Cycle is approximately 30 days in length.
Card: Any branded Card we issue that you may use to purchase goods or services from Retailer. Use of your Card to obtain Credit will be considered use of the Account.
Closing Date: The date of the last day of a Billing Cycle.
Covered Borrower: Certain members of the Armed Forces and their dependents who are protected by the Military Lending Act.
Credit: The credit extension you receive under this Agreement.
Credit Limit: The maximum amount of Credit available to you on your Account. Your Account Credit Limit will be disclosed to you on the monthly statements.
New Balance: The total outstanding Account balance on the Closing Date specified in your monthly statement.
Previous Balance: The balance of your Account at the beginning of a Billing Cycle. This will be the same as the “New Balance” shown on the previous monthly statement.
Purchase: An extension of Credit to your Account for the purpose of purchasing goods or services from Retailer.
Purchase Balance: The total outstanding balance of Purchases and interest charges.
Retailer: Participating The Home Depot locations located in the U.S.
USING YOUR ACCOUNT
Purchases. You may use your Account to purchase goods and services from Retailer. You promise to pay us and are liable for all amounts resulting from the authorized use of your
Account Number or Account, plus any applicable interest charges and other applicable charges or fees, payable in U.S. dollars.
Your Credit Limit. You may not use your Account in any way that would cause you to go over your Credit Limit. We may refuse to authorize or accept any transaction on your
Account if (1) that transaction would cause you to exceed your Credit Limit or (2) your Account is delinquent. We may temporarily agree to allow you to exceed your Credit Limit.
If we do so, in that case, you must repay the excess amount according to the terms of this Agreement. Any transactions honored in excess of your Credit Limit will not result in an
increase of your Credit Limit.
MAKING PAYMENTS
Monthly Statements. We will send a statement at the end of each monthly Billing Cycle if there is a debit or credit balance on your Account of $1 or more, a balance on which an
interest charge has been imposed or as otherwise required by applicable law. You agree to pay us, or any party to whom we may transfer and assign your Account or the amounts
owing under your Account, in U.S. dollars according to all terms and conditions of this Agreement. Payments made by a check, money order or other negotiable instrument must
be in a form acceptable to us and drawn on a U.S. financial institution.
Monthly Minimum Payment. The monthly minimum payment is 6% of your New Balance or $50, whichever is greater. If you elect not to pay your New Balance in full, you must pay
at least the monthly minimum payment by the payment due date shown on your monthly statement, which is at least 25 days after the Closing Date of the Billing Cycle.
If you make a payment in excess of the monthly minimum payment for any month, it will not reduce your monthly minimum payment in subsequent months, but it may result in your
paying off a Purchase more quickly.
Your monthly minimum payment will also include the greater of (i) any past due amount, or (ii) any amount by which the New Balance exceeded your Credit Limit. Your monthly
minimum payment due will never exceed your New Balance.
Payments should be mailed with the payment coupon and in the envelope provided and following the other instructions on the monthly statement to Genesis FS Card Services,
P.O. Box 84049, Columbus, GA 31908. Any payment we receive in that form and at that address on or before 5:00 P.M. Eastern Time on a normal banking day will be credited to
your Account that day. If we receive your payment in that form and at that address after 5:00 P.M. Eastern Time on a normal banking day, or any time on a non-banking day, we will
credit it to your Account the next banking day. Please allow at least seven (7) business days for postal delivery. Payments we receive at any other location or in any other form may
not be credited as of the day we receive them. If we accept a payment at some other place, we may delay the crediting of the payment for up to five (5) days. This may cause you to
incur Late Payment Fees and additional interest charges, and may result in your Account being declared in default.
When you provide a check as payment, you authorize us either to use information from your check to make a one-time electronic fund transfer from your account or to process the

payment as a check transaction. When we use information from your check to make an electronic fund transfer, funds may be withdrawn from your account as soon as the same
day we receive your payment and you will not receive your check back from your financial institution.
At any time, you may pay part or all you owe on your Account without incurring any additional charge for prepayment. The amount of any payment that exceeds your total New
Balance will be applied as a credit to your Account, and any remaining credit balance will be refunded as required by law.
Credit availability may be delayed at our sole discretion to ensure payment in good funds, and your total Credit Limit may not reflect your payments for up to 14 days.
Application of Payments. For each Billing Cycle, we will allocate payment amounts up to your monthly minimum payment to charges and principal due (including new transactions)
in any way we determine. We will generally apply payment amounts up to your monthly minimum payment in a manner most favorable or convenient for us.
For each Billing Cycle, to the extent your payments exceed your monthly minimum payment, we will apply these excess amounts in the order required by applicable law.
HOW INTEREST CHARGES ARE DETERMINED
Your interest charge for any Billing Cycle will include a periodic interest charge computed by applying the applicable Daily Periodic Rate, determined as provided below under
Computing the Purchase Daily Periodic Rate and Corresponding Annual Percentage Rate (APR) to your Average Daily Balance of Purchases (including new Purchases).
When Interest Charges Begin to Accrue. Interest charges on Purchases will be imposed at the applicable Daily Periodic Rate from the date each Purchase is made, and will continue
to accrue on unpaid balances as long as they remain unpaid. However, we do not assess interest charges in the following circumstances:
1. If you paid the New Balance at the beginning of your previous Billing Cycle by the Payment Due Date during the previous Billing Cycle, or if that New Balance was $0 or a credit
balance, then:
a. if you pay the New Balance on your current monthly statement in full by the Payment Due Date in your current Billing Cycle, we will not assess interest charges on Purchases
during your current Billing Cycle; and
b. if you make a payment that is less than the New Balance by the Payment Due Date in your current Billing Cycle, we will credit that payment as of the first day in your current
Billing Cycle.
2. If you had a New Balance at the beginning of your previous Billing Cycle and you did not pay that New Balance by the Payment Due Date during that previous Billing Cycle, then
we will not assess interest charges on any Purchases during the current Billing Cycle if you pay the New Balance at the beginning of your current Billing Cycle by the Payment
Due Date in your current Billing Cycle.
Calculating the Purchase Balance Subject to Interest Charges
Average Daily Balance of Purchases (including new Purchases): To get the Average Daily Balance of Purchases, we take the beginning Purchase balance of your Account each
day, including unpaid interest charges on Purchases, add any new Purchases as of the date of transaction, and subtract the applicable portion of any payments and credits as of
the transaction date. This gives us the daily balance for Purchases. Then we add all these daily balances for the Billing Cycle together and divide the total by the number of days in
the Billing Cycle. This gives us the Average Daily Balance of Purchases.
Computing the Purchase Daily Periodic Rates and Corresponding Annual Percentage Rates (APR)
Daily Periodic Rates: The Daily Periodic Rate is calculated by multiplying the APR by 1/365. The Purchase APR is 29.99% and the Daily Periodic Rate for Purchases is 0.0821%.
OTHER FEES
In addition to interest charges, other fees may be applied to your Account, as set forth below. The amounts of these fees may change from time to time during the term of your
Account.
Late Payment Fee. If we do not receive your Monthly Minimum Payment by the Closing Date of the Billing Cycle in which the Payment Due Date occurs and the amount past due
on your Account is more than $9.99, we will apply a Late Payment Fee to your Account. The Late Payment Fee is $29 if we did not charge a Late Payment Fee during any of the
prior six billing periods. Otherwise, the Late Payment Fee is $40. The Late Payment Fee will never exceed the amount of your most recently required Monthly Minimum Payment.
Returned Payment Fee. If any payment on your Account is returned to us unpaid for any reason, we will apply a Returned Payment Fee to your Account. The Returned Payment Fee
is $29 if we did not charge a Returned Payment Fee during any of the prior six billing periods. Otherwise, the Returned Payment Fee is $40. The Returned Payment Fee will never
exceed the Monthly Minimum Payment.
Documentation Fee. You may request a copy of a monthly statement previously sent to you for a Documentation Fee of $3 per statement, which we will charge to your Account.
Copies of sales tickets or other items posted to your Account may be obtained for a Documentation Fee of $10 per sales ticket or other item, which will be applied to your Account.
Notwithstanding the foregoing, we will not impose any fee in connection with a good faith assertion of a billing error or other exercise of your Billing Rights (see below under “Your
Billing Rights - Keep This Notice for Future Use”).
MILITARY LENDING ACT
The Military Lending Act provides protections for Covered Borrowers. The provisions of this section apply to Covered Borrowers. If you would like more information about
whether you are a Covered Borrower, you may contact us at 1-866-502-6439.
Statement of MAPR. Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the
cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an Annual Percentage Rate of 36%. This rate must include, as applicable to
the credit transaction or account: (1) the costs associated with credit insurance premiums; (2) fees for ancillary products sold in connection with the credit transaction; (3) any
application fee charged (other than certain application fees for specified credit transactions or accounts); and (4) any participation fee charged (other than certain participation fees
for a credit card account).
Oral Disclosures. In order to hear important disclosures and payment information about this Agreement, you may call 1-866-875-5929.
Applicability of Arbitration of Disputes Provision. The Arbitration of Disputes Provision set forth in this Agreement does not apply to you if, as of the date of this Agreement, you
are a Covered Borrower.
LOST ACCOUNT NUMBER AND UNAUTHORIZED USE
If your Account Number is lost or stolen or used without your consent, you may be liable for the unauthorized use of your Account, but you will not be liable for unauthorized use that
occurs after you notify us orally or in writing of the loss, theft or possible unauthorized use at: Genesis FS Card Services, P.O. Box 4477, Beaverton, OR 97076, 1-888-260-4532.
In any case, your liability will not exceed $50.
OUR RIGHTS, AND HOW THEY AFFECT YOU
Telephone Monitoring and Recording; Communications. You consent and agree that, except as restricted by applicable law, we may monitor and/or record telephone calls
regarding your Account, suppress caller identification services, use prerecorded messages, and use an automated telephone dialing and announcing system. You expressly consent
that we and our agents, any servicer, or any subsequent owner of your Account may (i) contact you at any cellular telephone number that you provided as part of your application,
at any number that you later provide (including, without limitation, after your Account is in a default status), or at any other number that is identified as related to you, including by
text message, and (ii) use automated telephone dialing systems to initiate such contacts and/or leave recorded messages.

If you provide us at any time with an email contact for your Account, you agree we may use that email address to contact you about your Account and may send you information
about products and services related to your Account.
We or our representatives may contact you from time to time regarding the Account, or to ask for additional information about you or your experience with us. You agree that such
contacts are not unsolicited and may include contacts at your home or place of employment, during weekdays, weekends or holidays, on your mobile telephone, voicemail or
answering machine, or by email, fax, recorded message, text message or personal visit.
How to Revoke Consent for Future Communications. If you want to revoke your consent to future communications as described in the previous paragraph, you must send us a
written notice that includes: (i) your name, mailing address, and Account number(s); (ii) the specific telephone number(s), email address(es) and/or mailing address(es) at which
you no longer wish us to contact you, and (iii) the types of communications (telephone, text, email, and/or mail) for which you are revoking consent. You must send this written
notice to: Genesis FS Card Services, PO Box 4477, Beaverton, OR 97076. You understand and agree that it may take up to three business days after receipt of your written notice to
process your request, and that you consent to continued communications during this period of time.
Refunds. If Retailer agrees to give a refund, you will accept a credit on your Account instead of a cash refund.
No Waiver of Rights; Disputed Amounts. We can accept late or partial payments without losing any of our rights under this Agreement. You agree not to send us partial
payments marked “paid in full,” “without recourse,” or similar restrictive language. If you send such a payment, we may accept it without losing any of our rights under this
Agreement. All written communications concerning disputed amounts, including any check or other payment instrument that indicated that the payment constitutes “payment
in full” of the amount owed or that is tendered with other conditions or limitations or as full satisfaction of a disputed amount, must be mailed or delivered to Genesis FS Card
Services, P.O. Box 4499, Beaverton, OR 97076.
Credit Reports and Information. You authorize us to make or have made any credit, employment, or other investigative inquiries we deem appropriate to extend you Credit or collect
amounts owed to us on your Account. We (including any assignee of the Account or amounts owing under the Account) may also obtain information about you from credit reporting
agencies or others at any time and use it for the purposes of monitoring your credit performance, managing your Account and considering you for new offers and programs.
Notice of Inaccurate Information. If you believe that we have information about you that is inaccurate or that we have reported or may report to a credit reporting agency information
about you that is inaccurate, please notify us of the specific information that you believe is inaccurate by writing to us at Genesis FS Card Services, P.O. Box 4499, Beaverton, OR
97076.
Default and Collection. Unless prohibited by applicable law, your Account is considered to be in default if (1) you fail to make the required monthly minimum payment due on or
before its payment due date, including if your payment is returned or cannot be processed and you do not correct that failure within 31 days, (2) you try to exceed or do exceed
your Credit Limit without permission and do not bring your Account back under your Credit Limit within 31 days, (3) you become subject to bankruptcy or insolvency proceedings,
(4) you become subject to attachment or garnishment proceedings, (5) you give us any false information or signature, (6) you die, or (7) you fail to comply with any portion of this
Agreement. Our accepting a late or partial payment does not waive default. Default on this Account will constitute default on all accounts you hold with us.
Subject to any notice of default and right to cure or other restrictions of applicable law, if you are in default, we may declare the entire balance due immediately. Except as provided
in the Arbitration Provision below, you agree to pay our reasonable costs and attorneys’ fees and expenses related to the collection of your Account to the extent permitted by
applicable laws.
Change of Terms. Subject to the limitations of applicable law, we may, at any time, change or remove any of the terms and conditions of, or add new terms or conditions to,
this Agreement. If required by applicable law, we will mail written notice of such a change to you in the manner required by such law. As of the effective date, the changed or
new terms will apply to new Purchases and to the outstanding balance of your Account, subject to the limitations of applicable law.
Delay in Enforcement. We can delay enforcing our rights under this Agreement without losing them.
OTHER PROVISIONS
Ownership and Use of Your Account. As the Accountholder(s), you are liable for all Credit obtained under your Account. If you authorize another person to use your Account Number,
you are liable for any Credit obtained on your Account for as long as that person holds or uses the Account Number. Misuse of your Account by an authorized person will not be
considered unauthorized use. See “Lost Account Number and Unauthorized Use” above.
Transactions. You will retain for statement verification purposes your copy of each Purchase transaction receipt from Retailer.
Refunds for Goods and Services. Refunds for goods and services are governed by Retailer. Any refunds for goods or services purchased from Retailer through an extension of
Credit on your Account will be issued as a credit adjustment to your Account. When we are notified by Retailer of any refund amount, we will subtract an amount equal to the refund
amount from your Account. If a refund amount results in a credit balance on your Account, we will refund your credit balance.
Transfer and Termination of Your Account. You may not transfer your Account to any other person. We may assign your Account or amounts you owe on your Account to any other
person at any time and the assignee will take our place under the Agreement with respect to all agreements and interests transferred. You must pay the assignee and otherwise
perform your obligations under the assigned agreements and interests. Either you or we may terminate or suspend your Credit privileges at any time, with or without cause and with
or without advance notice, but you will remain liable for all charges until they are paid in full. You may cancel your Account at any time by writing to us at Genesis FS Card Services,
P.O. Box 4477, Beaverton, OR 97076.
Additional Benefits and Services. From time to time, we may offer you benefits and services with your Account. We or another party may provide these benefits and services.
Unless expressly made a part of this Agreement, and except as provided in the Arbitration Provision below, any such benefits and services are not a part of this Agreement, and are
subject only to the terms and conditions outlined in the benefits or services brochure and other official documents provided to you with respect to the benefits and services. We
may adjust, add, or delete benefits or services at any time in accordance with the brochures or documents you receive. Except as required by applicable law, we are not liable for
benefits or services that other parties provide or for their actions or omissions.
Honoring Your Account. We are not liable for the failure or refusal of Retailer to accept your Account Number. Although you may have Credit available, we will not be liable for the
failure to authorize Credit due to operational difficulties or mistakes. Transactions made above a certain dollar amount may require that we authorize the transaction before the
transaction is approved. In addition, we may limit the number and amount of daily transactions approved for security reasons.
Change of Address, Employment and Telephone. We will send all written notices and monthly statements to your address as it appears on our records. To avoid delays and missed
payments that could affect your credit standing, you agree to promptly advise us if you change your mailing address, place of employment, or telephone number.
Severability. In the event that any provision of this Agreement is determined to be invalid or unenforceable for any reason, the remaining provisions will remain in effect.
Entire Agreement; Interpretation. This Agreement (including the other documents incorporated herein by reference as discussed above) constitutes the final expression of the
credit agreement between you and us relating to your Account. The headings used in this Agreement are for the convenience of reference only and are not intended to define or
describe the scope or intent of any portion of the Agreement.
Governing Law. Except as expressly set forth in the Arbitration Provision of this Agreement, this Agreement and the interpretation and enforcement thereof (including but
not limited to the exportation of interest rates) will be governed by Federal law that applies to us and, to the extent not preempted by Federal law, the laws of the State of
Missouri, including Missouri Revised Statutes (Chapter 408 Legal Tender and Interest) Section 408.145.
Arbitration of Disputes Provision. PLEASE READ THIS ARBITRATION OF DISPUTES PROVISION CAREFULLY. UNLESS YOU SEND US THE REJECTION NOTICE DESCRIBED
BELOW, THIS PROVISION WILL APPLY TO YOUR ACCOUNT, AND MOST DISPUTES BETWEEN YOU, ON THE ONE HAND, AND US OR ANY SERVICER OF YOUR ACCOUNT,

INCLUDING, BUT NOT LIMITED TO, GENESIS FS CARD SERVICES, INC. (“GENESIS”), ON THE OTHER HAND, WILL BE SUBJECT TO INDIVIDUAL ARBITRATION. THIS MEANS THAT:
(1) NEITHER A COURT NOR A JURY WILL RESOLVE ANY SUCH DISPUTE; (2) YOU WILL NOT BE ABLE TO PARTICIPATE IN A CLASS ACTION OR SIMILAR PROCEEDING; (3) LESS
INFORMATION WILL BE AVAILABLE; AND (4) APPEAL RIGHTS WILL BE LIMITED. THIS ARBITRATION OF DISPUTES PROVISION DOES NOT APPLY TO YOU IF, AS OF THE DATE OF
THIS AGREEMENT, YOU ARE A MEMBER OF THE ARMED FORCES OR A DEPENDENT OF SUCH MEMBER ENTITLED TO PROTECTION UNDER THE FEDERAL MILITARY LENDING
ACT. PLEASE SEE THE SECTION OF THIS AGREEMENT LABELED “MILITARY LENDING ACT.” IF YOU WOULD LIKE MORE INFORMATION ABOUT WHETHER YOU ARE ENTITLED TO
PROTECTION UNDER THE FEDERAL MILITARY LENDING ACT, YOU MAY CONTACT US AT 1-800-304-9369.
This provision replaces any existing arbitration provision with us and will stay in force no matter what happens to your Account, including the closing of your Account. Except as
expressly provided below, you and we must arbitrate individually, by binding arbitration under the Federal Arbitration Act (“FAA”), any dispute or claim between you, on the one
hand, and us , our affiliates, and agents, and/or any servicer of your Account on the other hand, if the dispute or claim arises out of or is related to (a) this Agreement (including
without limitation, any dispute over the validity of this Agreement to arbitrate disputes or of this entire Agreement), or (b) your Account, or (c) any relationship resulting from this
Agreement, or (d) any insurance or other service related to your Account, or (e) any other agreement related to your Account (including prior agreements) or any such service, or (f)
breach of this Agreement or any other such agreement, whether based on statute, contract, tort or any other legal theory (any “Claim”). However, we will not require you to arbitrate
any individual Claims in small claims court or your state’s equivalent court, so long as it remains an individual case in that court.
YOU AGREE NOT TO PARTICIPATE IN A CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTION AGAINST US OR ANY SERVICER OF YOUR ACCOUNT, INCLUDING,
BUT NOT LIMITED TO, GENESIS, IN COURT OR ARBITRATION. ALSO, YOU MAY NOT BRING CLAIMS AGAINST US OR ANY SERVICER OF YOUR ACCOUNT, INCLUDING, BUT NOT
LIMITED TO GENESIS, ON BEHALF OF ANY ACCOUNTHOLDER WHO IS NOT A JOINT CARDHOLDER WITH YOU OR AN AUTHORIZED USER ON YOUR ACCOUNT (AN “UNRELATED
ACCOUNTHOLDER”), AND YOU AGREE THAT NO UNRELATED ACCOUNTHOLDER MAY BRING ANY CLAIMS AGAINST US OR ANY SERVICER OF YOUR ACCOUNT, INCLUDING, BUT
NOT LIMITED TO, GENESIS, ON YOUR BEHALF. CLAIMS BY YOU AND AN UNRELATED ACCOUNTHOLDER MAY NOT BE JOINED IN A SINGLE ARBITRATION. THE ARBITRATOR
WILL NOT HAVE THE POWER TO CONSIDER SUCH CLASS, REPRESENTATIVE OR PRIVATE ATTORNEY GENERAL ACTIONS OR ANY SUCH CLAIMS YOU BRING ON BEHALF OF
AN UNRELATED ACCOUNTHOLDER.
Judgment on the arbitration award may be entered in any court having jurisdiction. Any dispute regarding whether a particular controversy is subject to arbitration, or the
applicability or enforceability of the foregoing paragraph, will be decided by a court and not by an arbitrator.
If you or we or any servicer of your Account, including, but not limited to, Genesis, elect to arbitrate a claim, the electing party must notify the other party in writing. The notice can
be given after the beginning of a lawsuit and can be given in papers filed in the lawsuit. Otherwise, your notice must be sent to Genesis FS Card Services, Attn: Arbitration Demand,
P.O. Box 4477, Beaverton, Oregon 97076, and our notice must be sent to the most recent address for you in our files. The arbitration will be administered by the American Arbitration
Association (the “AAA”) under its rules in effect at the time an arbitration is commenced that are applicable to the resolution of consumer disputes (the “Arbitration Rules”). We will
tell you how to contact the AAA and how to get a copy of the Arbitration Rules without cost if you ask us in writing to do so. The Arbitration Rules permit you to request deferral or
reduction of the administrative fees of arbitration if paying them would cause you a hardship. In addition, if you ask us in writing, we will consider your request to pay any or all of
your costs of arbitration.
Each arbitrator shall be a licensed attorney who has been engaged in the private practice of law continuously during the ten years immediately preceding the arbitration or a retired
judge of a court of general or appellate jurisdiction. The arbitration award shall award only such relief as a court of competent jurisdiction could properly award under applicable
law, including attorneys’ fees if allowed by applicable law or agreement. All statutes of limitation, defenses, and attorney-client and other privileges that would apply in a court
proceeding will apply in the arbitration.
If any provision of this Section regarding arbitration of disputes shall be deemed to be unenforceable, the remainder of this Section shall be given full force and effect. However, if
the provision precluding class, representative or private attorney general Claims in arbitration is deemed unenforceable, then this entire Arbitration Agreement shall be void and of
no force and effect.
You may reject this provision, in which case only a court may be used to resolve any dispute or claim. Rejection will not affect any other aspect of the Agreement. To reject this
Provision, you must send us a notice within 60 days after you open your Account or we first provide you with a right to reject this Provision. This notice must include your name,
address and Account Number and be mailed to Genesis FS Card Services, Attn: Arbitration Provision, P.O. Box 4477, Beaverton, Oregon 97076. This is the only way you can reject
this Provision.
YOUR BILLING RIGHTS – KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, please write to us at: Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
In your letter, give us the following information:
• Account information: Your name and Account Number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least three (3) business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors, and you may have to pay the amount in
question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit line.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will then send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.

If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Account Purchases
If you are dissatisfied with the goods or services that you have purchased with your Account, and you have tried in good faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles of your current mailing address, and the Purchase price must have been more than $50. (Note:
Neither of these are necessary if your Purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your Account for the Purchase. Purchases made with cash advances from an ATM or with a check that accesses your Account do not qualify.
3. You must not yet have fully paid for the Purchase.
If all of the criteria above are met and you are still dissatisfied with the Purchase, contact us in writing at: Genesis FS Card Services, P.O. Box 4499, Beaverton, OR 97076.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as delinquent.
Your Genesis Credit Account is issued by:
The Bank of Missouri

F03-Y599-6 -0920

